Annual Report, “Federal Information Security Management Act: Fiscal Year 2008 Report
from the Office of Inspector General” (IG-08-031, September 30, 2008)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. For
FY 2008, our audit included a review of 39 non-national security Agency systems and
6 non-national security external systems. We also reviewed specific actions that the
Agency took to improve IT security. Our review was in response to the Deputy Chief
Information Officer for IT Security’s conclusion that IT security was no longer a material
weakness that needed to be reported as such in the Administrator’s annual Statement of
Assurance. Progress made included closure of 91 percent of recommendations to
improve IT security made by the Office of Inspector General in FYs 2005 through 2007,
establishment of the IT Security Program Management Office, revisions to the incident
management program that included implementation plans for the Security Operations
Center, establishment of the Cyber Threat Analysis Program, and improvements to the
Agency’s compliance with FISMA requirements.

Based on the work we performed, we agree that IT security is no longer a material
weakness. However, while there is improvement in internal controls through
establishment of management programs and processes, we have not determined the
effectiveness of these controls in reducing IT security threats. Whether management
programs and processes can effectively demonstrate results can only be determined over
time. The NASA OCIO should continue to report quarterly to the Senior Assessment
Team until these actions are fully implemented and demonstrating the desired results.
This should ensure continued focus on IT security deficiencies as well as ensure that
sufficient management attention and adequate resources are provided. Therefore, we
plan to again report IT security as a management and performance challenge in the
Agency’s FY 2008 Performance and Accountability Report.

The OMB’s FY 2008 Report to Congress on Implementation of The Federal Information
Security Management Act of 2002 includes information from our report. However, as an
“Intra-Agency Memorandum,” our report is considered exempt from release under the
Freedom of Information Act (FOIA); it also contains NASA Information Technology/
Internal Systems Data that is not routinely released under FOIA. To submit a FOIA
request, see the online guide.
